<html>
<title> - DISRUPTING THE MARKET: STRATEGY, IMPLEMENTATION, AND RESULTS IN NARCOTICS SOURCE COUNTRIES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





 
    DISRUPTING THE MARKET: STRATEGY, IMPLEMENTATION, AND RESULTS IN 
                       NARCOTICS SOURCE COUNTRIES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 2003

                               __________

                           Serial No. 108-118

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

92-515              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                   Christopher Donesa, Staff Director
               John R. Stanton, Professional Staff Member
                         Nicole Garrett, Clerk
                  Julian A. Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 9, 2003.....................................     1
Statement of:
    Simons, Paul, Acting Assistant Secretary for International 
      Narcotics and Law Enforcement Affairs, Department of State; 
      Andre Hollis, Deputy Assistant Secretary for Special 
      Operations and Low Intensity Conflict (Counternarcotics), 
      Department of Defense; Roger Guevara, Director of 
      Operations, Drug Enforcement Administration; and Roger 
      Mackin, Counternarcotics Officer, Department of Homeland 
      Security and U.S. Interdiction Coordinator.................     8
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     9
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    83
    Guevara, Roger, Director of Operations, Drug Enforcement 
      Administration, prepared statement of......................    42
    Hollis, Andre, Deputy Assistant Secretary for Special 
      Operations and Low Intensity Conflict (Counternarcotics), 
      Department of Defense, prepared statement of...............    31
    Mackin, Roger, Counternarcotics Officer, Department of 
      Homeland Security and U.S. Interdiction Coordinator, 
      prepared statement of......................................    62
    Simons, Paul, Acting Assistant Secretary for International 
      Narcotics and Law Enforcement Affairs, Department of State, 
      prepared statement of......................................    14
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4


    DISRUPTING THE MARKET: STRATEGY, IMPLEMENTATION, AND RESULTS IN 
                       NARCOTICS SOURCE COUNTRIES

                              ----------                              


                        WEDNESDAY, JULY 9, 2003

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Ose, Davis of Virginia, 
Cummings, Davis of Illinois, and Ruppersberger.
    Staff present: Christopher A. Donesa, staff director and 
chief counsel; John Stanton, congressional fellow; Nicole 
Garrett, clerk; Tony Haywood, minority counsel; and Cecelia 
Morton, minority office manager.
    Mr. Souder. The subcommittee will come to order.
    Good morning. Because of our focus in the subcommittee this 
year on the reauthorization of the Office of National Drug 
Control Policy and the President's treatment initiative, this 
is the first hearing of the 108th Congress on drug supply 
interdiction matters. There are certainly no lack of important 
issues for discussion, however; and I expect today's hearing to 
cover a wide range of pressing questions.
    As I often point out, around 20,000 Americans die each year 
of drug-related causes, more than any single terrorist act to 
date, more than, actually, all combined terrorist acts to date. 
It is important that we maintain vigorous efforts to control 
the sources of supply for narcotics and to interdict them from 
the United States. While we have recently begun to see real and 
tangible successes in some of our source country programs--most 
notably Plan Colombia--the Federal Government continues to face 
significant challenges with respect to interdiction programs 
caused by resource constraints and, in some cases, policy and 
political issues. Our witnesses today have some of the most 
significant responsibilities for operational matters relating 
to narcotics supply reduction and interdiction, and I 
appreciate very much the opportunity to have them all on the 
same panel to survey the status of these critical programs.
    First, we will review the status of implementation and 
recent successes of Plan Colombia. Chairman Tom Davis of the 
full committee and I returned from a visit to Colombia on 
Monday, which was the third committee delegation this year. It 
is clear that we are beginning to see real and tangible 
successes, and both of us very much appreciate the continued 
strong support of President Uribe and Vice President Santos, 
with whom we have had the opportunity to spend a significant 
amount of time.
    We also obtained a renewed sense of the many steep, steep 
challenges Colombia and our source country programs continue to 
have. We met with soldiers who had lost limbs and eyes to the 
increasing terrorist attacks of the FARC. Earlier this year, we 
attended a funeral. We met with widows who were grateful for 
the opportunity to learn skills toward an even modest living by 
baking or sewing supported by the Agency for International 
Development.
    Other serious issues must be considered relating to Plan 
Colombia. Three Americans continue to be held hostage by the 
FARC. The Attorney General of the United States has indicted 
members of both the FARC and the AUC for using drug proceeds to 
support their terrorism. Colombian heroin is becoming 
increasingly prevalent on the East Coast of the United States; 
and as our programs start to succeed in Colombia we face 
increased attacks on spray planes and the potential for 
spillover of the drug traffic, violence and terrorism to other 
nations in the Andean region.
    We must also consider the failure of European nations to 
step up and provide assistance sorely needed to build 
communities and institutions at this crucial time that those 
countries pledged to provide at the very beginning as we put 
this plan together and as Colombia put this plan together and 
yet they have not contributed.
    The second significant problem is the question of 
allocation of natural resources--excuse me. The second 
significant problem is the question of allocation of national 
resources to drug interdiction missions. Many of our most 
significant interdiction assets were moved into the Department 
of Homeland Security.
    Committee staff received briefings last week at the Joint 
Interagency Task Force South in Key West and the U.S. Southern 
Command that suggest that the redirection of natural resources 
from drugs--I am supposed to be at a natural resources markup 
right now and I am missing that, so natural resources is in my 
head--that suggest that the redirection of national resources 
from drug control missions to Homeland Security missions has 
begun to have a dire negative impact on drug interdiction. Some 
detection and interception programs have available only a 
minuscule proportion of the amount of resources that government 
experts have deemed necessary for an adequate interdiction 
program.
    Based on information made available to the committee, I 
believe, as an example, that more than 300 metric tons of 
cocaine that previously would have been detected and 
intercepted may have been allowed onto American streets last 
year because our resources have been diverted to other 
purposes. This is wholly unacceptable and must be addressed 
vigorously and quickly by the department of Homeland Security 
and the Department of Defense. For example, there is no point 
in putting our soldiers and contractors, DEA agents, the 
Colombian National Police in danger on the ground if we're 
going to miss them when they come out; and we're very disturbed 
at what we're hearing.
    Today we will try to determine more precisely what has been 
the extent of the disruption, what steps can be taken to ensure 
the adequacy of interdiction resources and whether resources 
will ever return to previous levels.
    We will also want to examine closely related matters, 
including lengthy delays in the resumption of the Airbridge 
Denial Program in Colombia and Peru and the organizational 
issues at the Department of Homeland Security, especially the 
development of the Counternarcotics Officer position, 
originally created in this committee.
    Finally, we will also consider the response to rapidly 
emerging new threats such as the resumption of large-scale 
heroin production in Afghanistan and what efforts are under way 
for its control; traffic in precursor chemicals from Mexico, 
Canada, China and other nations; and the continued flood of 
Ecstasy to the United States.
    Clearly, our plate this morning is very full; and I welcome 
our witnesses.
    From the Department of State, we have Acting Assistant 
Secretary of State for International Narcotics and Law 
Enforcement Affairs, Paul Simons; from the Department of 
Defense, we have Deputy Assistant Secretary for 
Counternarcotics, Andre Hollis, who is making his first 
appearance here as one of the many distinguished former 
committee staff working in this area; from the Drug Enforcement 
Administration, we welcome Chief of Operations Roger Guevara; 
and from the Department of Homeland Security, we welcome the 
Counternarcotics Officer Roger Mackin, who concurrently serves 
as the U.S. Interdiction Coordinator and is making his first 
appearance here as well.
    I also note for the record that Dr. Barry Crane, Deputy 
Director of the Office of National Drug Control Policy, was 
invited to testify today but was unavailable. We look forward 
to receiving his testimony separately in the future.
    Welcome, all of you; and I look forward to the discussion.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T2515.001
    
    [GRAPHIC] [TIFF OMITTED] T2515.002
    
    [GRAPHIC] [TIFF OMITTED] T2515.003
    
    [GRAPHIC] [TIFF OMITTED] T2515.004
    
    Mr. Souder. Mr. Cummings is on his way over, and we will 
have him do his opening statement after he arrives.
    And we are joined by Mrs. Davis. I believe you don't have 
an opening statement, is that correct?
    We'll proceed then and go straight to our witnesses.
    We'll start with Mr. Simons.

   STATEMENTS OF PAUL SIMONS, ACTING ASSISTANT SECRETARY FOR 
INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS, DEPARTMENT 
OF STATE; ANDRE HOLLIS, DEPUTY ASSISTANT SECRETARY FOR SPECIAL 
   OPERATIONS AND LOW INTENSITY CONFLICT (COUNTERNARCOTICS), 
 DEPARTMENT OF DEFENSE; ROGER GUEVARA, DIRECTOR OF OPERATIONS, 
      DRUG ENFORCEMENT ADMINISTRATION; AND ROGER MACKIN, 
 COUNTERNARCOTICS OFFICER, DEPARTMENT OF HOMELAND SECURITY AND 
                 U.S. INTERDICTION COORDINATOR

    Mr. Simons. Thank you very much, Mr. Chairman.
    Mr. Chairman and members of the committee, we appreciate 
this opportunity to meet with you today to discuss how the 
State Department and specifically the Bureau for International 
Narcotics and Law Enforcement Affairs is contributing to U.S. 
Government efforts to disrupt the markets in key narcotic 
source countries. We particularly appreciate your personal 
interest, support and dedication to the fight against drugs to 
the work that--collaborative work that we have undertaken with 
your staff and with other members of the committee.
    If I could ask, Mr. Chairman, that my full statement be 
entered into the record; and I will provide a brief oral 
statement with your permission.
    Mr. Souder. Without objection, it is so ordered.
    Actually--if I may interrupt, and we will restart your 
clock--I forgot to do that at the beginning here. I ask 
unanimous consent that all Members have 5 legislative days to 
submit written statements and questions for the hearing record 
and that any answers to written questions provided by the 
witnesses also be included in the record.
    Without objection, it is so ordered.
    I also ask unanimous consent that all exhibits, documents 
and other materials referred to by Members and the witnesses 
may be included in the record and that all Members be permitted 
to revise and extend their remarks.
    Without objection, it's so ordered.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T2515.005
    
    [GRAPHIC] [TIFF OMITTED] T2515.006
    
    Mr. Souder. I also forgot to do the oath because I was 
distracted by my comment on Mr. Cummings, so if each of you 
would stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that the witnesses have 
answered in the affirmative. It will also show that the only 
part that was significant was congratulating me and the 
committee, and you weren't under oath on that part. So if you 
can proceed. Sorry for the interruption.
    Mr. Simons. Thank you, Mr. Chairman.
    The INL Bureau directly supports the President's national 
drug control strategy and its orchestration of U.S. Government 
efforts to reduce the availability of illicit drugs in our 
country. Specifically, we actively support supply reduction 
programs through direct assistance as well as multilateral and 
diplomatic efforts conducted in cooperation with other 
departments and agencies of our government. Very prominent 
among our programs are those that support the national strategy 
of reducing the production and trafficking of drugs in the 
principal source countries, which are, of course, the subject 
of this hearing.
    I will touch briefly on our activities in the major source 
countries; and then my longer statement, of course, will be 
entered into the record.
    First let's turn to Colombia. As you mentioned, Mr. 
Chairman, it is an extremely high priority for the U.S. 
Government, for the State Department, and for my Bureau. Market 
disruption in Colombia actually involves a combination of 
eradication activities, interdiction, institution building and 
alternative development programs.
    Last year, Mr. Chairman, as you mentioned, 2002 was a 
banner year for counternarcotics efforts in Colombia, which 
remains the source of more than 90 percent of the cocaine and 
most of the heroin entering the United States. For the first 
time since drug cultivation began increasing in the mid-1990's, 
overall coca cultivation declined, by our estimates, by more 
than 15 percent. Opium poppy cultivation also declined by an 
estimated 25 percent for 2001 levels.
    These declines are directly the result of a robust U.S.-
assisted aerial eradication program, which sprayed over 122,00 
hectares of coca in 2002, representing a 45 percent increase 
over 2001. In addition, the spray program destroyed more than 
3,000 hectares of opium poppy, again a 67 percent increase over 
the prior year. And during the first 6 months of that year, we 
sprayed 73,000 hectares of coca and 1,600 hectares of opium 
poppy; and we continue to maintain this pace. We fully intend 
to spray all the coca and opium poppy in Colombia by the end of 
this year.
    That said, Colombia faces a number of significant 
challenges to consolidating its progress in counternarcotics. 
As eradication efforts squeeze the industry, we have 
experienced more ground fire, as you mentioned, Mr. Chairman, 
from narco-terrorist groups. Our aircraft have taken more than 
220 rounds of ground fire during this year to date. That figure 
is also in excess of the levels sustained in 2001 and 2002.
    Some Colombian extremist groups have become increasingly 
dependent on drug-related revenues. We believe they're starting 
to feel the squeeze financially; and, as a result, we expect 
these groups will increasingly use their firepower and 
ingenuity to go after our eradication efforts. We are taking a 
close look at our security programs in Colombia. We are making 
adjustments. But this is a challenge that we need to work on 
together with the Congress to make sure that we have sufficient 
security and assets to keep this eradication program going.
    President Uribe's firm stance on drug trafficking and 
narcoterrorists has ushered in a new political climate in 
Colombia and an increase in counternarcotics and 
counterterrorism operations around the country. He has 
significantly boosted security spending by more than $1 billion 
annually, and he has been fully supportive of our eradication 
efforts, and he has been very successful in turning around 
public opinion in Colombia on the merits of the eradication 
program, a very significant achievement.
    We are also engaged in a number of projects in the 
institution building and democracy areas and the alternative 
development area which are further outlined in my written 
statement.
    Our fiscal year 2004 request includes $463 million for 
Colombia. We believe it's extremely important to secure full 
funding for this effort. This is a very critical year in terms 
of our efforts in Colombia. We need to consolidate the progress 
we have made both in terms of eradication as well as 
interdiction as well as support for Colombian military lift 
which is very important to provide security for our spray 
operations on the ground. So we ask for whatever support you 
can provide through this committee for full funding of our 
fiscal year 2004 request.
    Turning to Bolivia and Peru briefly, to prevent traffickers 
from further developing alternative drug production sources 
elsewhere, we are actively reinforcing our counternarcotics 
programs in these two countries. Our efforts to support 
stronger government counternarcotics actions have been slowed, 
unfortunately, by radical cocalero movements that have seized 
upon the historic tradition of coca cultivation as a rallying 
cry for indigenous rights against the dominant urban political 
culture. We've also found that economic difficulties in both 
countries have weakened government resources to enhance 
counternarcotics efforts.
    That said, we are working very hard to further strengthen 
political will in both Bolivia and Peru. We have a robust 
budget both for eradication as well as interdiction and 
alternative development programs in those countries; and, 
again, our budget request for fiscal 2004, which includes $116 
million for Peru and $91 million for Bolivia, will be very 
important to be sustained to ensure again that cultivation does 
not spill over into these countries.
    In Mexico, we're working very closely with the Fox 
administration to support their ambitious 6-year national drug 
control plan. That's really the first effort to call on Mexican 
society and institutions more broadly to wage a frontal assault 
against all aspects of the drug program, including production, 
trafficking and consumption.
    Since September 11, the United States and Mexico have also 
significantly stepped up cooperation on border security to 
ensure a tighter screening of people and goods. We've put 
resources toward this program in our fiscal year 2002 
supplemental, and of course we get corollary benefits in terms 
of the drug fight for this program.
    In fiscal 2004 we have requested $37 million for Mexico. 
About half of that is focused on border security. The remainder 
is to support counter-drug, counter-crime operations, criminal 
justice reform, and law enforcement; and we ask your strong 
support for those programs as well.
    Mr. Chairman, in your opening statement you mentioned 
Afghanistan. Afghanistan is a country that we also have an 
intense focus on. There's been some disappointment with respect 
to Afghanistan's performance on opium poppy cultivation within 
the last year. Despite a strong political commitment by the 
Karzai government, Afghanistan has resumed its position as the 
world's largest producer of heroin in 2002; and we're likely to 
see another fairly substantial year for opium poppy 
cultivation.
    This year we're taking a number of steps, working with the 
British and our European colleagues, to bolster the ability of 
the Afghan Government to deal with its counternarcotics 
problems; and we are working on institution building, we're 
working on law enforcement, we're working on alternative 
development. We see a substantial level of commitment by the 
UK, by the U.N. and by the Europeans. The Secretary of State 
went to Europe in May to push for additional European 
involvement.
    Most of the Afghan opium does make its way to Europe, but 
it remains a key concern for the United States as well, and in 
this regard, we request your support for our fiscal 2004 budget 
request of $40 million which will be largely focused on 
strengthening Afghan law enforcement and counternarcotics law 
enforcement.
    Mr. Chairman, I have--I address in my written statement a 
number of the other source countries, but I think I will leave 
it there and be happy to take any of your questions.
    Mr. Souder. Thank you very much. We'll draw out some of the 
additional countries in the questioning.
    [The prepared statement of Mr. Simons follows:]

    [GRAPHIC] [TIFF OMITTED] T2515.007
    
    [GRAPHIC] [TIFF OMITTED] T2515.008
    
    [GRAPHIC] [TIFF OMITTED] T2515.009
    
    [GRAPHIC] [TIFF OMITTED] T2515.010
    
    [GRAPHIC] [TIFF OMITTED] T2515.011
    
    [GRAPHIC] [TIFF OMITTED] T2515.012
    
    [GRAPHIC] [TIFF OMITTED] T2515.013
    
    [GRAPHIC] [TIFF OMITTED] T2515.014
    
    [GRAPHIC] [TIFF OMITTED] T2515.015
    
    [GRAPHIC] [TIFF OMITTED] T2515.016
    
    [GRAPHIC] [TIFF OMITTED] T2515.017
    
    [GRAPHIC] [TIFF OMITTED] T2515.018
    
    [GRAPHIC] [TIFF OMITTED] T2515.019
    
    [GRAPHIC] [TIFF OMITTED] T2515.020
    
    [GRAPHIC] [TIFF OMITTED] T2515.021
    
    Mr. Souder. Mr. Hollis.
    Mr. Hollis. Thank you, Chairman Souder; and thank you again 
for convening this very important hearing.
    Mr. Chairman, Mr. Ruppersberger, Mrs. Davis, it is my 
pleasure to appear before you today to discuss the Department 
of Defense's programs and policies that assist nations around 
the world in their battle against drug trafficking and narco-
terrorism. In particular, I am honored to speak before the 
committee where I spent 2 wonderful years as your senior 
counsel. I value the work that you do, and I congratulate you 
for your continuing leadership.
    I have a longer statement to be placed in the record, but I 
would like to briefly touch upon the Department of Defense's 
counternarcotics efforts both at home and abroad.
    Each year, my office expends a great deal of time, effort 
and resources to assist lead law enforcement agencies in drug 
interdiction. This is a complex process that requires 
coordination and funding from all levels of government 
agencies, local and State law enforcement and the foreign 
countries in which we assist in the eradication of crops and 
disruption of their transportation to the United States. A 
large portion of the profits from drug sales, indirectly or 
directly, support terrorist organizations as well, another 
reason that we are working hard to reduce the supply of drugs.
    We are increasingly aware of these linkages between 
terrorist organizations, narcotics traffickers, weapons 
smugglers, kidnapping rings and other transnational networks. 
Terrorist groups such as the FARC in Colombia, al Qaeda and 
groups around the world finance key operations with drug money. 
The Department of Defense, with our counterparts in the 
Department of State, other government agencies seeks to 
systematically dismantle drug trafficking networks, both to 
halt the flow of drugs into the United States and to bolster 
the broader war on terrorism.
    In the international arena, much of our counternarcotics 
support includes deployments, programs that train and furnish 
intelligence and operational support for drug detection, 
monitoring and provide equipment to partner counterdrug forces. 
These countertrafficking methods are directly aimed at 
disrupting the terrorist drug trade and finance networks that 
threaten partner nations.
    We're particularly proud to support our State and 
interagency counterparts in the resumption of the Airbridge 
Denial Program in Colombia.
    Domestically, the Department is working with law 
enforcement, the National Guard, U.S. Northern Command and the 
new Department of Homeland Security to coordinate 
counternarcotics efforts. The National Guard is an exceptional 
partner to law enforcement in domestic counternarcotics 
missions that require military unique skills, particularly when 
it comes to protecting our borders from the influx of drugs.
    Our objective is to increase the overall effectiveness of 
the U.S. Government in countering the flow of drugs into the 
United States. To do this, the Department is transitioning the 
National Guard out of missions that are not military unique--
such as cargo mail inspection, maintenance and logistics and 
marijuana whack and stack--to those that are more military 
unique--aerial and ground reconnaissance, intel analysis and 
training for law enforcement agencies. In response to this 
need, the Department is enhancing National Guard support to law 
enforcement particularly along the Southwest border and at 
linguist centers in California and in Washington.
    Chairman Souder, I would like to thank you, Mr. 
Ruppersberger, Mrs. Davis, once again for the tremendous 
support and leadership that you have provided. I look forward 
to answering your questions on all of these issues. Thank you.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Hollis follows:]

    [GRAPHIC] [TIFF OMITTED] T2515.022
    
    [GRAPHIC] [TIFF OMITTED] T2515.023
    
    [GRAPHIC] [TIFF OMITTED] T2515.024
    
    [GRAPHIC] [TIFF OMITTED] T2515.025
    
    [GRAPHIC] [TIFF OMITTED] T2515.026
    
    [GRAPHIC] [TIFF OMITTED] T2515.027
    
    [GRAPHIC] [TIFF OMITTED] T2515.028
    
    [GRAPHIC] [TIFF OMITTED] T2515.029
    
    [GRAPHIC] [TIFF OMITTED] T2515.030
    
    Mr. Ose. Mr. Guevara.
    Mr. Guevara. Good morning, Mr. Chairman. I am pleased to 
once again testify on behalf of the Drug Enforcement 
Administration on the topic of source countries.
    Chairman Souder, Representative Ruppersberger and Ms. 
Davis, just yesterday we witnessed Attorney General Ashcroft 
and Mexican Attorney General Rafael Macedo de la Concha 
announce the indictment of the 12 individuals who represent the 
top hierarchy of the Arellano-Felix organization in San Diego. 
This drug cartel has been responsible for importing and 
distributing hundreds of tons of cocaine and marijuana into our 
borders and carrying out murders both in Mexico and in the 
United States.
    It was not an accident that the two shared the stage. It 
was as much a reflection of the resolve of the United States as 
it was a tribute to the extraordinary progress our friends in 
Mexico have made in pursuing major drug trafficking 
organizations.
    The vast majority of our countries drug control program is 
based at home. It is dedicated to domestic law enforcement, 
border interdiction and treatment and prevention programs 
within the United States. However, about 9 percent of the 
Federal drug control budget is dedicated to international 
efforts. That investment in source countries is critical.
    Transnational drug trafficking organizations headquartered 
outside our borders seek to prey upon vulnerable American 
citizens by supplying vast amounts of dangerous drugs. For 
example, over 80 percent of the cocaine hydrochloride, which is 
the finished product, entering the United States originates in 
or passes through Colombia. Source country efforts are 
essential because traffickers are not restricted by boundaries. 
The very nature of the drug trade is transnational. It respects 
no borders, recognizes no jurisdictions and favors no 
nationalities. Rather than focus on stemming the flow after 
these drugs have crossed into the United States, the DEA takes 
a transnational approach and focuses on drug control efforts at 
the point of origin, the source country.
    The DEA employs a broad, three-tiered approach to 
operations in source countries. First, we work with our 
international counterparts to disrupt and ultimately dismantle 
the organizational heart of drug-trafficking organizations.
    We witnessed in March of this year the arrest of Osiel 
Cardenas-Guillen, whose cartel controls the smuggling corridor 
near Brownsville, TX. He had been our No. 1 priority target for 
all of Mexico and Central America. DEA's Monterrey resident 
office and our sensitive investigative units focused on 
Cardenas' capture, with assistance of the Mexican Government.
    Second, we build international cooperation and an enhanced 
law enforcement institutions in our partner countries. The DEA 
is the premiere drug law enforcement agency in the world and is 
committed to sharing that expertise with our counterparts. The 
heart of DEA's international operations lies within the 
sensitive investigations--excuse me--the sensitive 
investigative units we have established in nine different 
countries around the world. These trained and vetted police 
officers target the command and control centers of the world's 
most significant drug-trafficking organizations.
    Third, we provide the critical international assistance 
needed to break the drug trade as a financial source for 
terrorists. Just last November, a joint DEA and FBI OCDETF 
investigation known as Operation White Terror resulted in the 
indictment and arrest of individuals offering to exchange drugs 
for weapons on behalf of the Autodefensas Unidas de Colombia 
[AUC], which is recognized as a foreign terrorist organization.
    In conclusion, successful endeavors such as Operation Seis 
Fronteras, the SIU program, the arrest of Osiel Cardenas in 
Mexico, Operation Rebound in Colombia and yesterday's 
indictment of the Arellano-Felix organization's top hierarchy 
exemplify the encouraging prospects of DEA's source country 
initiative. More important, perhaps, are the lasting effects 
that these efforts will have on nurturing of strong, 
professional law enforcement institutions throughout the world.
    Finally, I would like to point out the chart that is to the 
committee's left that identifies and illustrates the source 
country threats and transit zones that I have referred to in my 
testimony.
    Thank you, Mr. Chairman. I'll be happy to respond to any 
questions the committee may have.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Guevara follows:]

    [GRAPHIC] [TIFF OMITTED] T2515.031
    
    [GRAPHIC] [TIFF OMITTED] T2515.032
    
    [GRAPHIC] [TIFF OMITTED] T2515.033
    
    [GRAPHIC] [TIFF OMITTED] T2515.034
    
    [GRAPHIC] [TIFF OMITTED] T2515.035
    
    [GRAPHIC] [TIFF OMITTED] T2515.036
    
    [GRAPHIC] [TIFF OMITTED] T2515.037
    
    [GRAPHIC] [TIFF OMITTED] T2515.038
    
    [GRAPHIC] [TIFF OMITTED] T2515.039
    
    [GRAPHIC] [TIFF OMITTED] T2515.040
    
    [GRAPHIC] [TIFF OMITTED] T2515.041
    
    [GRAPHIC] [TIFF OMITTED] T2515.042
    
    [GRAPHIC] [TIFF OMITTED] T2515.043
    
    [GRAPHIC] [TIFF OMITTED] T2515.044
    
    [GRAPHIC] [TIFF OMITTED] T2515.045
    
    [GRAPHIC] [TIFF OMITTED] T2515.046
    
    [GRAPHIC] [TIFF OMITTED] T2515.047
    
    [GRAPHIC] [TIFF OMITTED] T2515.048
    
    Mr. Souder. Mr. Mackin.
    Mr. Mackin. Chairman Souder and distinguished members of 
the subcommittee, it is a distinct pleasure and privilege to 
appear before you today in what is my first opportunity to 
testify before the Congress as the Counternarcotics Officer of 
the Department of Homeland Security and the U.S. Interdiction 
Coordinator.
    Mr. Chairman, I know you played an integral role in 
successfully offering language contained within the Homeland 
Security Act of 2002 to provide for a senior official within 
the new Department to coordinate counternarcotics matters with 
respect to interdicting the entry of illegal drugs in the 
United States and tracking and severing connections between 
illegal drug trafficking and terrorism. I am grateful for your 
efforts and leadership in assisting this critical mission. I 
want to thank you for your unwavering support to the 
Department, our mission and our personnel.
    As I have been in these positions for just 3\1/2\ months, 
this is my first opportunity to apprise you of my progress in 
fulfilling these roles. I've submitted written testimony to you 
on my activities. That testimony provides examples showing that 
the DHS is performing well in its mission to help interdict the 
flow of illicit narcotics in the United States.
    But I want to take this speaking opportunity to highlight 
the valuable synergism of the roles of the DHS Counternarcotics 
Officer and the U.S. Interdiction Coordinator. Having now 
worked hard at both roles and seeing the benefits of having a 
single person fulfill them, I'm here to confirm that the merger 
is a productive idea. In both roles the desired outcome is 
helping DHS and the other members of our Nation's counterdrug 
community to improve our ability to disrupt and eventually stop 
the smuggling of tons of illicit drugs into our country.
    Success in these roles boils down to two key ingredients. 
First and foremost, the incumbent must become truly expert on 
the current methods of operation used by the drug trafficking 
industry to manufacture, transport and smuggle drugs into the 
United States; and you need equal knowledge on how they 
distribute the drugs to primary markets within the United 
States and then to return the proceeds from the sale of those 
drugs to their international corporate headquarters.
    The second key ingredient to success in these roles is to 
create solid working relationships with the leadership and 
senior managers within the DHS and the whole counterdrug 
community. You have to be able to speak frankly with them about 
the strengths and shortfalls of our daily endeavors. The level 
of the DHS Counternarcotics Officer position and that of the 
U.S. Interdiction Coordinator affords the direct access to 
those officers. I'm pleased to say that I'm well on the way to 
mastering both key requirements.
    Regarding gaining current knowledge of our drug 
adversaries, I have canvassed all of the agencies in the law 
enforcement and intelligence communities for the later 
information. Because of my earlier years of work in counterdrug 
intelligence operations, I am able to test the communities' 
intelligence information for completeness and credibility; and 
where I have found the information and analysis incomplete, by 
virtue of the stature of my combined roles I can challenge 
these agencies to go further in their collection and analysis 
efforts. We have gaps to fill, and I'm getting the counterdrug 
community to work on them.
    Regarding the other key ingredient, that is establishing 
productive personal contact with the field commanders and the 
senior agency managers in the counterdrug community, it too is 
working well. I have the direct access I need, and I'm having 
productive discussions on priorities and resource allocation.
    So I've made good progress in a foundation to work in the 
future, and from the experience gained thus far I want to 
emphasize that having a single person unencumbered by other 
responsibilities and solely dedicated to looking independently 
at where we are and where we need to get to regarding stemming 
the flow of illicit drugs offers the unique opportunity to help 
DHS and the whole counterdrug community conceive and develop 
new and better approaches to drug interdiction.
    Mr. Chairman, I again compliment you for conceiving of this 
approach and thank you for the privilege to be chosen to serve 
as the Department of Homeland Security's Counternarcotics 
Officer and the U.S. Interdiction Coordinator.
    Like you and all the distinguished members of this 
subcommittee, I recognize both the direct and the indirect 
threats that illicit drug trafficking poses to our country and 
our people. The Department Homeland Security is populated by 
both leaders and operators that share that understanding and a 
commitment to utilize the skills, resources and super personnel 
of the Department to continue to do all within our power to 
disrupt to deter and destroy the organizations that try to 
bring this scourge to our homes and our homeland.
    I appreciate the opportunity to appear before you today. I 
thank you for your continued support and would be happy to 
answer any questions you have.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Mackin follows:]

    [GRAPHIC] [TIFF OMITTED] T2515.049
    
    [GRAPHIC] [TIFF OMITTED] T2515.050
    
    [GRAPHIC] [TIFF OMITTED] T2515.051
    
    [GRAPHIC] [TIFF OMITTED] T2515.052
    
    [GRAPHIC] [TIFF OMITTED] T2515.053
    
    [GRAPHIC] [TIFF OMITTED] T2515.054
    
    [GRAPHIC] [TIFF OMITTED] T2515.055
    
    [GRAPHIC] [TIFF OMITTED] T2515.056
    
    [GRAPHIC] [TIFF OMITTED] T2515.057
    
    [GRAPHIC] [TIFF OMITTED] T2515.058
    
    [GRAPHIC] [TIFF OMITTED] T2515.059
    
    [GRAPHIC] [TIFF OMITTED] T2515.060
    
    [GRAPHIC] [TIFF OMITTED] T2515.061
    
    Mr. Souder. Let me start out with some--going backward 
order, starting out with Mr. Mackin.
    If you look at this as an effort, using the chart over 
there, of--to the degree that we can or we fail to get it 
eradicated, we try to get it before it leaves say Colombia or 
Mexico, and then once it leaves into the transit zone we try to 
get it before it gets to the border of the United States. If we 
can't get it at the border, it gets to be an expanding funnel, 
and it's harder and harder for the State police, the local 
police and that the key part that the Department of Homeland 
Security plays is in the transit zone, or what would be the red 
marks on that chart, and at the actual border?
    Mr. Mackin. I would agree that's a very key role of the 
DHS. But one thing I would point out, as you have said it's 
like a funnel, and the broader it gets the more difficult it 
gets to capture it. I think focusing on revenue denial, which 
the DHS has the resources to do as well, is probably the most 
important thing we can do to thwart the efforts of the 
traffickers. If they don't get their money back, they don't 
stay in business.
    Mr. Souder. I agree that revenue denial is a major part.
    What part of the Department of Homeland Security, would 
you--in other words, you have Customs; and it would be through 
the Customs--through the old Customs division in the--not the 
border division but the investigations division?
    Mr. Mackin. You've got your criminal investigators who are 
also the financial investigators. On your border you've got 
your inspectors. And I agree that, as far as the open seas and 
the distance between Colombia and the United States, the Coast 
Guard plays a very, very important role, as do the aircraft of 
the Bureau of Immigrations and Customs Enforcement.
    Mr. Souder. I have really two lines of questions that I 
am--we've submitted to Secretary Hutchinson when he testified 
in front of the Homeland Security Committee and I'm pursuing a 
little here because we're not particularly enamored at some of 
the answers we're getting.
    First, let me deal with the red lines and the--well, that's 
a different chart there, but basically the transit zones. Do we 
have any Coast Guard capability currently in the Pacific side 
specifically? Do we have an oil tanker to refuel them? Or are 
all the boats basically diverted to other--the tankers diverted 
to other parts of the world and our boats are predominantly up 
on the California border and not down on the Pacific?
    Mr. Mackin. To my knowledge, there is no oiler operating in 
the Eastern Pacific that can service the vessels that are doing 
interdiction roles in the EPAC area.
    Mr. Souder. And doesn't that limit our ability to cover 
where 67 percent of the narcotics----
    Mr. Mackin. Yes, sir.
    Mr. Souder. And have you made a recommendation to the 
Department of Homeland Security that either the Department of 
Homeland Security needs to request maybe through a new vessel 
if we need the others elsewhere, either through Coast Guard, or 
I'm going to ask the same question of the Department of 
Defense, whether it should be in their budget. Because since 67 
percent moves through the Eastern Pacific roughly, based on 
past estimates, and 33 percent through the Caribbean, that to 
be relatively defenseless till they get to the Texas, Arizona, 
New Mexico, and California border is really not a very good 
option.
    Mr. Mackin. I made the recommendation, sir, to the 
Interdiction Committee when we met on May 21st that this be 
looked at, that by whatever means we try to get an oiler there, 
even if it means leasing one. Because Admiral Sirois, the 
commander of the JIATF South, mentioned that that was one 
possibility.
    So I have raised that issue. We're having another meeting 
this Friday. I hope to hear a response.
    Mr. Souder. Because this is essential. Because we're very 
concerned, among other things, about the Eastern Pacific side, 
which is much more geographically difficult to handle.
    We also met with a Mr. Bonner on another matter--
Congressman Shadegg and I through Homeland Security--and in 
that raised some concerns, because he had previously been over 
both sides of Customs and whenever you have a reorganization 
there are all kinds of challenges.
    But one thing that I hope you have been raising internally 
and will continue to watch is, as you separate the border 
division from the investigations division, we will have a 
demoralizing impact and possibly even an administrative 
incentive to discourage aggressive border control if the 
investigations units don't have the capacity to followup or get 
diverted to other types of investigations. Specifically, 
Homeland Security terrorism threats are probably greater on the 
north border right now than the south border.
    At the same time, and if such a terrorism threat develops, 
it is conceivable that the investigations division could be 
substantially diverted to that terrorism threat, meaning that 
all the cocaine/heroin arrests that previously would have been 
followed through in the narcotics division could get diverted 
and we could have all sorts of cases lost or even a 
discouraging from picking up those cases so that the numbers 
don't look bad. I wonder whether you've raised that concern, 
what the responses are to that concern and how in the future 
we're going to track that, because this is a potentially huge 
problem in the narcotics area.
    Mr. Mackin. Sir, I'm conscious of the problem. I have not 
specifically raised it. I have talked directly with Secretary 
Ridge, with Deputy Secretary England and with Under Secretary 
Asa Hutchinson and I can say this, that there is a uniform 
commitment to the counterdrug programs, to sustaining them and 
improving them where possible. I know that Under Secretary 
Hutchinson has a working group under way to look at all of the 
resources within the BTS directorate as to how they can be best 
focused on the counterdrug problem and that he has given 
personal instructions to a key person in that activity to make 
very sure that counterdrug is properly addressed.
    Mr. Souder. Thank you.
    Mr. Ruppersberger, I believe you were next.
    Mr. Ruppersberger. Well, there are a lot of issues here 
today; and I really praise all of you for being involved in 
this line of work. It's extremely necessary.
    I'm going to talk about the macro issue first and if I have 
time maybe some individual issues.
    The macro issue I'm very much concerned with is that the 
resources that are being taken away from drug interdiction, 
from all the things that you do every day and that are going 
into fighting and dealing with the issue of terrorism, if you 
look at the threats, I think that you probably--85 to 90 
percent of all violent crime is drug related. We have 
tremendous problems, and the fact that resources are being 
taken from one area to another--I mean, terrorism is something 
we have to deal with, no question about that. But we also need 
to give--keep the resources where they are.
    I was reading in my notes that at the Joint Interagency 
Task Force in Key West, FL, also with the U.S. Southern 
Command, some of our committee members went to that meeting or 
seminar, whatever it was, and that there was an example that 
over 300 metric tons of cocaine that previously would have been 
detected and intercepted may have been allowed onto American 
streets last year because our resources have been diverted to 
other purposes. I would like you really to address the issue, 
each one.
    If we have time, I'll get into some other areas: the issue 
of taking resources out of our drug interdiction and moving 
that, those resources into the area of terrorism. And it starts 
with FBI, CIA. I mean, in every group this is happening. How do 
you see that happening? And if it is, what do you suggest that 
we need to do other than funding which we know we continue in 
resources?
    And, by the way, I used to be involved in, as a State 
prosecutor, in dealing with a lot of drugs. I think we worked 
together once, Mr. Guevara, on a wiretap or whatever. And the 
conspiracies and the international and all the issues that you 
have to deal with--but a good narc makes a difference, too. OK.
    Mr. Hollis. Congressman, if I might jump on that question 
first.
    As the Deputy Assistant Secretary of Defense for 
Counternarcotics, I'm responsible for providing the policy 
guidance and the resources for JIATF South and for SOUTHCOM'S 
counterdrug efforts. I can tell you with no reservation that 
after September 11 the number of U.S. Navy ships and planes in 
the Caribbean and the Eastern Pacific did not appreciably 
change, and the reason for that is we have a specific order 
that provides the numbers of ships, the amount of time per year 
that they're in the region providing counterdrug support. That 
didn't change from a DOD perspective.
    In fact, what we have done to enhance our counterdrug 
capabilities as executed by JIATF South is we've said, to the 
extent that you're able to detect, monitor and interdict ships, 
planes and people carrying drugs, look for anything that may be 
on those ships, planes or those individuals, not just drugs but 
other threats to the homeland.
    Similarly, we're talking with our National Guard 
counterparts in the southern States, particularly in Florida, 
Louisiana, Mississippi, Texas; and to the extent that National 
Guard planes and intel analysts and reconnaissance capabilities 
can support JIATF South by performing littoral reconnaissance 
missions, then we want to use those skill sets. So that if the 
U.S. Navy ships and the Coast Guard ships in the deep water 
cannot, say, stop a Go Fast boat, then the JIATF South can 
provide that information to the National Guard, which, working 
with State and local law enforcement, can interdict them before 
they reach our coastlines.
    So we're looking to enhance the capabilities that we have. 
We have not decreased our resources provided to SOUTHCOM and 
JIATF South. In fact, I think at our border, or our resources 
for 2004, there's a slight increase. So the resources that the 
Department of Defense is putting into supporting law 
enforcement efforts to interdict drugs has not changed. What we 
said is, as you develop these skill sets in detecting, 
monitoring, interdicting drugs coming into the United States, 
simply keep your eyes open for other things as well.
    Mr. Ruppersberger. I see my time is almost up. And that 
might be OK in that one specific area, but I think the facts 
will show that in every area, from the street to the Coast 
Guard to Defense to DEA, Homeland Security, there's a lot that 
is going on in this country. And right now, because of the 
recession, we're looking to areas to really cut budgets; and 
this is an area that really concerns me. It's an issue.
    I know that's why the chairman's having these hearings, and 
I appreciate that. That we have to get on top of this and make 
sure that terrorism is, right now, it's on TV every day. Drug 
interdiction is not any more. And yet right now, if you look at 
the victims, the victims are there. I can't ask any more 
questions. But you can answer them.
    I'm very much concerned, if any other area has an issue or 
an example of how the resources are being taken from one area 
into another, please throw it out here, because that's what the 
purpose of this hearing is for.
    Mr. Mackin. Mr. Ruppersberger, if I may answer for DHS. I'd 
like to point out that Admiral Collins, the Commandant of the 
Coast Guard, is keenly, keenly aware of this problem. And that 
when an orange alert occurs or particularly a Liberty Shield he 
is obliged to pull certain cutters that may be in fisheries 
duty or counterdrug duty back for port security. But after 
having experienced that earlier this year, he is taking very, 
very concerted measures to determine how can you provide the 
port security without pulling as many of the cutter resources 
off line; and I have talked to him extensively on this.
    During a nonalert period, the Coast Guard has maintained 
what they call a steady state. The amount of resources applied 
in earlier years, prior to this terrorist concern, he is 
sustaining at that level; and the number of seizures achieved 
by Coast Guard resources remain at a constant level over the 
last several years. There's no question that more resources 
could be used down there. There is more intelligence than there 
is the ability to exploit. But the Coast Guard, I want to 
assure you, is doing its utmost to get down to what's needed or 
what they have to put down there.
    Mr. Ruppersberger. May I respond to that, Mr. Chairman?
    The Coast Guard is the perfect example--and that sounds--
you know, I'm glad to hear that they're doing whatever they 
need to do and they're working very well dealing with 
intelligence. The Coast Guard is an example, though, of an 
agency that is spread so thin and the responsibilities they 
have and the vulnerability of our ports--there's a lot that 
needs to be done in that arena, and it concerns all of us 
because we're talking about the national security. And, you 
know, I know you're trying; and it's not your fault. It's 
resources that need to be put in and the priorities have to be 
established at the top and the resources have to go back into 
what you're all doing.
    Mr. Souder. We have at this point an Assistant Secretary 
who was head of the DEA, a Vice Coordinator who has been head 
of DEA and Customs and Mr. Bonner. That may not always be the 
case. Your slot has to be the aggressive, constant pain in the 
neck in the system saying that narcotics has to be focused on.
    And one of the things that needs to be looked at, like has 
been discussed in general in Homeland Security, is when we go 
to an orange alert, if there's any kind of specificity to it, 
that every boat everywhere in our country doesn't have to run 
back to their home port, that there has to be some kind of 
logic to this. Because when you said orange alert I'm thinking, 
man, it seems like we're in orange alert a high percentage of 
the time.
    Furthermore, it takes a while for these boats to get out in 
the region and if every time--if you took the number of orange 
alerts--and I confess as a member of Homeland Security and this 
committee that I have--it's tough for me to follow all the 
colors, but it seems to me that if you are--if you count all 
the steaming out and steaming back time, combined with the 
amount of time that's orange alert, it's no wonder our coverage 
is down; and we have to substantively address that question.
    For Members, I'm going to go for the rest of this panel 
with 5 minutes. We'll have another round. I think we'll go with 
10 minutes in the second round so we can develop it a little 
further for those who stay.
    Congresswoman Davis.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman. I just 
have a question with regards to Afghanistan and the heroin 
there.
    Last year, when we had--I think it was last year, when we 
had testimony before the House Armed Services Committee and the 
International Relations Committee and the question was asked 
each time, before we went into or after we went into 
Afghanistan, what did we do with the heroin crop that was 
there? I understand there was a great amount of it. There was a 
lot stored.
    I was just in Italy last week with the transatlantic 
legislators dialog, and the members of the European parliament 
there were complaining that we have not done our job on getting 
rid of the heroin, and it was coming into their countries. And 
my concern is, because the answer we got on our Armed Services 
and our International Relations Committee was that it wasn't 
our concern because the Europeans would need to take care of 
it--the Brits, I guess, would have to take care of it because 
it was going into Europe, not coming here.
    I didn't buy that then, and I don't buy it now, because 
whether the actual heroin goes into there or here, the dollars 
go into the hands of the terrorists. Where are we on--and I 
don't care who answers it. All of you can answer it. Where are 
we on that?
    Mr. Simons. Let me take a crack at answering that, and 
maybe Andre can support it. At the time that we intervened 
militarily in Afghanistan, we were more or less in between drug 
cycles. The previous year, the Taliban had implemented a rather 
successful ban, which resulted in a substantial decline in drug 
cultivation; and we were--we intervened really right around the 
planting season so farmers had to decide, right at about the 
time that our military was going in there, whether they were 
going to plant opium or whether they were going to plant 
something else.
    And there was a political vacuum at that point. They didn't 
have any government really to look toward, and so a large 
number of them did make the choice of planting opium at that 
time. What we did in the immediate aftermath of the conflict, 
though, was to work with the incoming administration to assign 
a very high priority to the counterdrug effort; and in the Bonn 
negotiations that took place in December 2001, the priority 
assigned to counter drugs was a major factor.
    And 1 month after taking office, President Karzai decreed a 
comprehensive ban that went beyond what the Taliban had put 
into place, covering cultivation as well as trafficking and 
processing. So, and since then, as you mentioned, we have been 
working with the British, with the Germans and others to try to 
put the institutions in place--to try to put in place 
alternative livelihood possibilities for farmers to discourage 
them--to get them out of the business.
    The problem, like everything else in Afghanistan, has been, 
we're basically starting from ground zero, and it has been very 
difficult. The government does not control the countryside, 
does not control security in the countryside. They do not have 
effective means of implementing what their political goals are.
    So we have to some extent changed the focus of our programs 
in the last year. We are focusing more on institutional 
development, more on law enforcement. We're providing some 
support for alternative cropping, but we recognize the 
alternative cropping support is not really going to be 
effective until you have greater government control of the 
countryside.
    And we are working together with the Europeans, who do, and 
we believe ought to have the primary responsibility for this 
issue, because some 90 percent of their heroin does come from 
Afghanistan. And they have stood up to the plate, the British. 
It is a very high priority for the British prime minister, one 
of his highest priorities. And they pledged 75 million pounds 
within the last month.
    The Germans have come along, and they are helping to train 
the police. And we have a good relationship with some of the 
key ministers in Afghanistan.
    But this is going to be a long-term effort. We are starting 
from a very low level of institutional development. And, quite 
frankly, we are disappointed that we haven't been able to move 
quicker on this.
    Mrs. Davis of Virginia. Go ahead.
    Mr. Guevara. If I may, on behalf of DEA let me say, in May 
2002, Congress approved DEA's request for a reallocation of 17 
positions overseas and allowed us to reprogram some funding. 
And that became, to DEA, what we described as Operation 
Containment. And as a result of that support, through Operation 
Containment, DEA has established a permanent presence in that 
part of the world; and we have opened an office in Kabul, 
Afghanistan. And while the challenges there are many, as my 
colleague from the State Department has outlined, DEA has also 
strengthened its presence in several other Asian countries in 
the region where Afghan morphine is transported, processed, and 
eventually makes its way to markets in Moscow, London, 
potentially the United States. And, of course, the money that 
returns to those interests is of particular interest to us.
    DEA has also worked with Uzbekistan to form a Sensitive 
Investigations Unit, that I refer to in my testimony, for 
purposes of pursuing these major priority targets. And although 
the challenges are many and I can tell you that my two DEA 
agents in Kabul are living in a boxcar in the embassy compound 
because of the reality of the situation being what it is, we 
are nonetheless making every effort to expand our influence in 
that region and to check this tremendous threat of heroin 
coming from Afghanistan.
    Mrs. Davis of Virginia. Thank you, Mr. Chairman.
    Mr. Souder. Mr. Davis of Illinois.
    Mr. Davis of Illinois. Thank you, Mr. Chairman. Let me 
commend you for the continuous leadership that you and Ranking 
Member Cummings display in pursuit of matters relating to these 
issues.
    Mr. Simons, we know that eradication alone is not a 
solution to the problem of drug crop cultivation by poor 
people, and that establishment of long-term alternatives that 
are viable to ruin elicit drug crops is clearly necessary, if 
not the most important part of a long-term solution.
    How would you assess the success of USAID alternative 
development projects in Colombia, Bolivia, and Peru? And are 
there cases where we can point to successes as well as failures 
that we can draw important lessons from?
    Mr. Simons. Thank you, Mr. Davis.
    When Plan Colombia was put together in the year 2000, I 
think one of the geniuses of the design of the program was the 
fact that it provided not only for an eradication and an 
interdiction platform, but it also provided for a substantial 
increase in resources for alternative development, for 
institution building, and for support to internally displaced 
persons. So this has been one of the key pillars of our efforts 
in Colombia, as well as in Bolivia and Peru.
    In Colombia, we face a unique challenge with respect to 
alternative development, which is that in many of the areas in 
which we are conducting areas of eradication, we have two 
factors present that we don't have in Peru and Bolivia. First, 
these are not regions that are traditionally agricultural in 
nature. Many of these areas were deforested in order to make 
way for coca cultivation. So you don't have an agricultural 
tradition there; you have folks who have come in and are 
basically commonists, who have come in to grow coca. That is 
the first point.
    And the second point is that the Colombian Government until 
recently has not had adequate security control of these areas, 
which has made it very difficult for our practitioners to go in 
and carry out the kinds of alternative development programs 
that we have in some of the neighboring countries.
    So in Colombia we have operated with those two serious 
obstacles; and about a year ago we recognized that we needed to 
change the way we were doing alternative development in 
Colombia, that we couldn't simply encourage these farmers to 
grow other crops in areas that were not necessarily sustainable 
for farming. And we also recognized that there were security 
obstacles.
    So our alternative development program in Colombia now 
focuses on providing essential rural infrastructure, providing 
support in some of the municipalities, providing alternatives 
that aren't necessarily farming alternatives in areas that are 
not traditionally farming communities. So it is a different 
kind of an alternative development program. It is not purely a 
cropping program.
    And I think AID has made a good effort to transition that 
program toward broader support for building infrastructure in 
small towns and providing alternatives in agro-processing, in 
community development, and in small-scale infrastructure. And 
so I think the program in that regard is moving in the right 
direction. But it will always be more difficult to do these 
alternative development programs in Colombia; the circumstances 
are different.
    In Peru and Ecuador, in Peru and Bolivia, I believe that 
our alternative development programs have been one of the major 
reasons why we haven't seen a larger increase in coca 
cultivation there in the last couple of years. We have very 
good inroads, we have good relationships with the local 
communities, we have very effective U.S. implementers 
operating.
    We know the terrain. We know every hectare there in Peru 
and Bolivia. We can measure them, we can go in there, we can 
work with the local communities. We can encourage in certain 
cases manual eradication to take place. So our job is not quite 
as complex. It is still very difficult.
    We have had the resources, which were sustained in Bonn, 
and Colombia. So I think in Peru and Bolivia, we hope to 
consolidate the progress that we have made; and in Colombia we 
have a slightly different approach, but I think it is moving in 
the right direction.
    Mr. Davis of Illinois. Very quickly, Mr. Chairman, could I 
ask, is training a part in Colombia? I mean, you mentioned the 
alternatives relative to infrastructure development and 
different things that can be done. But are there things that 
people are being trained to do so that they have work 
alternative in--you know, as opposed to running the illegal 
crops?
    Mr. Simons. My understanding is that most of the 
alternative up to now has been used for small-scale 
infrastructure. And also, yes, training is definitely a part of 
it, and particularly in those areas in which we are still doing 
alternative cropping, which we are doing a certain amount of 
that.
    So, yes, there is a training component.
    Mr. Davis of Illinois. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Souder. Thank you.
    Ranking Member Cummings.
    Mr. Cummings. Mr. Chairman, I want to thank you, too, for 
holding this hearing. I want to thank all of our witnesses for 
being with us this morning, and I want to apologize for running 
a little late because of a conflict with another meeting.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T2515.062

[GRAPHIC] [TIFF OMITTED] T2515.063

[GRAPHIC] [TIFF OMITTED] T2515.064

[GRAPHIC] [TIFF OMITTED] T2515.065

    Mr. Cummings. Let me ask just one quick question, Mr. 
Simons. You said that--in your written testimony you state that 
Mexican drug traffickers will readily substitute 
methamphetamine for cocaine if and when the Colombian cocaine 
market wanes. Can you elaborate a little bit on that?
    Mr. Simons. I believe the issue here is the role of Mexican 
organized crime in facilitating drug trafficking more broadly 
in this country. And the notion here is--I mean, our sense is 
that the Mexicans will essentially move into those areas of 
market that are opened up for them.
    Already, Mexican organized crime groups dominate 
methamphetamine production inside this country. In California, 
they dominate distribution of methamphetamine. They dominate 
the transport of precursor chemicals from Canada into the 
United States. This is dominated by Mexican trafficking 
organizations. So they have quite a firm foothold in many 
different aspects of the trafficking patterns in different 
drugs.
    So I think the point here is that they will look at targets 
of opportunity. And to the extent that we are successful in 
driving out cocaine, they will be creative and look at other 
targets of opportunity. Which is why I think the efforts that 
have been under way, and particularly with DEA, to attack the 
Mexican trafficking organizations with the strong support of 
President Fox and the work of the Attorney General are 
extremely important and are issues that we need to devote even 
more resources to.
    Mr. Cummings. Did you have something, Mr. Guevara?
    Mr. Guevara. Sir?
    Mr. Cummings. And I would also like for you to comment on, 
you know, with these recent elections in Mexico, it gives us 
all pause for concern when Mr. Fox's party apparently didn't do 
so well. And it seems there is quite a bit of concern now as to 
at least the stability of the Fox government.
    So I just was curious as to how--first of all, it seems to 
be a tremendously improved situation under his administration. 
And do you all have any concerns about that? And how has the 
relationship, in your opinion, been overall?
    Mr. Guevara. Speaking for DEA, sir, I can say that the 
relationship certainly with DEA and our Mexican counterparts 
has never been better. If it is not perfect, it is as good as I 
have ever seen it in my 31 years.
    Mr. Cummings. Is that a lot because of the President, 
President Fox?
    Mr. Guevara. Yes, sir. I have to say that it is, because he 
has set the standard. He has put a high bar and an intolerance, 
if you will, for corruption and things that have occurred in 
the past, and he has taken very meaningful steps toward 
stemming that.
    And I can point, for instance, to the fact that the Mexican 
Government disbanded the former Mexican Federal Judicial 
Police, and in its place they have put up the Agencia de 
Federal Investigaciones, which is comparable to our FBI; and 
that the standards have been raised to where the new recruits 
now need to be college educated and their salary has increased. 
And from what we see on the ground with working with these 
folks, it is a meaningful and, more importantly in DEA's view, 
a visible effort at trying to check the problem, that 
corruption.
    Does it exist? It exists everywhere, most certainly. But 
the fact is that they have made what I consider to be some 
meaningful steps to try to improve that particular situation.
    Mr. Cummings. Yes?
    Mr. Mackin. To comment on the Mexican drug trafficking 
organizations, there are--according to our National Drug Threat 
Assessment done by the National Drug Intelligence Center, there 
are 13 primary market cities in the United States that receive 
drugs from international sources, and from there, they are 
distributed to the secondary markets.
    Mexican drug traffickers control or they dominate 11 of the 
13 markets, so they are basically in control within the United 
States. And if we are successful in eradicating cocaine or 
otherwise stopping it from getting into the United States, the 
Mexicans, who now control the distribution network--and they 
are the manufacturer of methamphetamine--are undoubtedly going 
to raise production to fill the demand. And the profit on meth 
is higher than cocaine, so I am sure they would welcome that 
event.
    Then, second, I would like to compliment DEA in its role in 
Mexico City. I was down there a couple of weeks ago as the U.S. 
interdiction coordinator and getting a general feel for what is 
happening. The DEA senior officer down there has brought 
together the FBI and the DHS resources there. They meet daily; 
in their staff meetings they share everything. It is one of the 
finest integrations of capabilities that I have seen in 
overseas countries in my long career.
    They are doing a fine job with their Mexican counterparts; 
and, yes, indeed it is due to Fox. Fox has done a fine job. I 
wish he could do more. Thank you.
    Mr. Cummings. Just one last thing, if I might.
    You know, in my district and Mr. Ruppersberger's--and we 
have adjoining districts. I hear all the time from my 
constituents. They say, you know, we see all this cocaine in 
our neighborhoods. But we don't own any boats, any planes, any 
trains, and in many instances no buses. And they get very 
frustrated.
    And I try to explain to them that the drugs are literally 
flooded into our country, and it is almost impossible to stop 
all this stuff from going on. And, that we have a situation 
where these people who export these drugs or traffic in drugs, 
they understand that they are going to pay a tax. And they 
expect to get caught sometimes. Is that reasonable? And so they 
accept the fact that maybe 1 out of every 10 tons is going to 
go down the tubes in some kind of way.
    But people get very, very frustrated when we try to explain 
to them the magnitude of the problem. And I imagine many 
Members of Congress go through the same thing. And they seem to 
think--I am talking about regular ``Joe and Mary on the 
street'' people. It is so hard for them to even comprehend how 
much effort there is put forth not only by those trying to 
traffic drugs, but by our Coast Guard and people like you all 
and what you all try to do every day.
    And I tell you, it does get rather frustrating, trying to 
explain it, that is. Anybody comment?
    Mr. Mackin. I would like to mention----
    Mr. Cummings. Maybe you could help me explain it a little 
better. But it is hard, because I live in a drug-infested place 
in Baltimore. And it is really--it is tough.
    And I tell them, I see guys like you all every day and we 
talk and I try to explain to them what you all do. And this is 
in no way a criticism, because I understand it. But trying to 
explain it to them is a whole other thing.
    Mr. Mackin. You have to look at this as a business 
opportunity for foreign criminals. This is a $64 billion 
industry with tremendous market opportunities. And they don't 
have to pay taxes on it since it is illicit drugs; their profit 
margins are very high. A lot of people are attracted to it, and 
a lot of very clever people are attracted to it. And in my 
opinion, the only way we can ever really hope to diminish this 
is to get at their money. If you deny them the flow-back of 
their proceeds, they will eventually say, hey, there is no 
money in this and I am going to do something else.
    Mr. Cummings. Just last but not least. You said 11 out of 
13 of those----
    Mr. Mackin. Primary market cities.
    Mr. Cummings [continuing]. Are controlled by Mexicans?
    Mr. Mackin. Yeah. They dominate the delivery, the 
transportation of the drugs to the cities, and then the 
distribution to the secondary markets.
    Mr. Cummings. Do you know or do you all believe that these 
are folks who--in other words, is it one group that controls 
three of the four? Do you understand what I am saying? Or is it 
just different--you believe, different groups of folks who are 
controlling each one of those 11?
    Mr. Mackin. I think it is different in that--you know, this 
follows the migration of Mexican laborers into the United 
States. They establish residences and their familial 
connections.
    If you look at a map, when you see how the drugs are 
distributed, you can understand that in the west the Mexicans 
would be very dominant out there by the contiguity of Mexico. 
But in looking at--one of the primary market cities is Atlanta, 
and I am looking at this saying, they dominate Atlanta? And 
then a colleague of mine who has been retired for years from a 
career in DEA said, yeah, if you think of the Olympics in the 
1990's, when that was ramped up, a lot of migrant workers went 
there to help in the construction and do the services; and then 
they remained in the area. Now, those family connections have 
allowed the traffickers in Mexico to make the linkages and to 
use them to receive drugs and just to help be the host to the 
infrastructure.
    Mr. Cummings. Thank you.
    Mr. Souder. One of the things that really is sobering on 
this scale is that we just had two of the biggest busts of 
cocaine in my hometown's history. One was $1.3 million I think, 
and one was $750,000. They were 26 and 30 pounds.
    In Colombia, while we were down there, they are picking up 
interdictions of a ton of cocaine, 2,000 pounds in one shot. 
And it is just an extraordinary difference from--once it gets 
out and starts to move, they break it into smaller and smaller 
loads. And if we can get it when it is a ton rather than try to 
deal with it--I mean, 26 pounds is a lot of kilos.
    I wanted to, let me first ask a couple of heroin questions. 
Does much Afghan heroin comes--let me, with Mr. Simons and then 
Mr. Guevara, you can maybe elaborate if there is any question 
about it.
    Afghan heroin mostly goes toward Europe. What percentage 
would you say comes to the United States?
    Mr. Simons. A very small percentage of Afghan heroin comes 
here, but I believe that the signature program--I will defer to 
Mr. Guevara, but I believe the latest number is somewhere 
around 7 percent of our heroin comes from Afghanistan. But that 
is much less than 7 percent of the Afghan production.
    Mr. Souder. Let me ask a couple followups then with Mr. 
Guevara.
    If 7 percent is Afghan, in Mr. Simons' statement--and I 
have a followup question with that in just a minute because I 
want to draw out some of the other countries we didn't get to 
in some of the testimony.
    Burma is the second largest producer of opium. What 
percentage of American heroin would you say is Burmese?
    Mr. Guevara. Yes, sir. One of the things that we have seen 
with regard to the Burmese heroin situation is the merger, if 
you will, of those interests with Sino--Thai-Chinese 
trafficking organizations. And some of the influences that are 
coming into our country, particularly to areas like New York, 
represent cultivations occurring in Burma that are being 
transshipped through other parts of Southeast Asia that are 
controlled by Southeast Asian organized crime, and then taking 
the raw product and refining it into heroin and then smuggling 
it into the United States.
    I recall that our best estimate there is also about 7 
percent.
    Mr. Souder. In your testimony, you said that you thought 
Colombia, I believe, was producing 5 percent of the world's 
heroin, and it was predominant on the East Coast. What 
percentage of U.S. heroin would you say is Colombian?
    Mr. Guevara. I would estimate that the U.S. market is about 
30 percent of Colombian heroin, and that the Colombian heroin 
or South American-type heroin predominates the Eastern part of 
the United States, east of the Mississippi, and that the 
Mexican heroin predominates west of the Mississippi.
    Mr. Souder. And would you say that--we are up to 44 
percent, but we are still under half. So Mexico would have what 
percent?
    Mr. Guevara. Mexico represents about 30 percent as well.
    Mr. Souder. And where is the bulk of that? That is still 
only two-thirds. You are missing 33 percent. I am wondering, if 
Afghanistan is the biggest producer and Burma is the second 
biggest producer and whereas Colombia and Mexico aren't as big 
of producers, but they provide to the United States, is this 
something that is really hard to identify? And could, in fact, 
the Asian heroin be a higher percent?
    Mr. Guevara. That is entirely possible. The principal 
threat from the Mexican-origin heroin is that the--although it 
is a relatively small percentage of the world production, the 
fact is that the majority, with only a little left in country 
for domestic abuse, the rest of it is targeted for the U.S. 
market. So although it is a relatively small portion of the 
world production, we're their market and it is directed 
entirely at us. So that creates a greater threat. And, of 
course, because of our geography, you know, they are flooding 
our markets; and as I said, they control the Western market of 
the United States.
    Mr. Souder. We are concerned about the heroin problem in 
Colombia. The amount of eradication has gone down, some of the 
interdiction has gone down. At the same time, in being there 
just these past few days, part of it is they can't find it. It 
is a question of, have we so damaged the crop that it is not 
there right now? Is it that it is spread to new locations?
    But is it also possible that there is more Colombian heroin 
on the market than we thought?
    Mr. Guevara. It is possible that there is more heroin on 
the market than we know. And one of the indicators there is 
that when they started trafficking heroin to the United States 
initially, in the early 1990's, they were doing it by way of 
body--carrying a pound, a kilogram, through ingestion--and then 
smuggling it into the country through the airports primarily.
    And over the course of time, as they have gained that 
foothold, and indeed are in the process of cornering the market 
in the Eastern United States, those same shipments are now 
coming in in larger amounts. They are coming in the 15-
kilogram, the 24-kilogram quantities. And that tells us that, 
of course, there is more production and that they are ever 
stronger in the United States. The street purity is higher and 
the price is down.
    So clearly they are taking a stronger foothold, and, again, 
control the Eastern half of the United States.
    I may have been in error when I said 30 percent of the 
cocaine--excuse me, the heroin represented the Colombian-origin 
heroin. I believe it is actually closer to 56 percent.
    Mr. Souder. OK.
    Now, Mr. Simons, I wanted to ask you some questions on 
Burma. That, given the current Government of Burma's policies, 
it is unlikely--it is nearly inconceivable that our government 
is going to relax any of the restrictions we currently have on 
the ability to operate within Burma.
    Have you found that the Chinese have--the Thais, you say in 
your testimony, have worked really hard to control and worked 
with us and have had a history of working with us on 
counternarcotics. It was really disturbing in your written 
testimony to hear that they are working with the United Wa, 
which controls a large territory of Burma and controls most of 
the opium area, that they have agreed to end production after 
2005.
    Two questions: One is, is that really meaningful at all or 
is there any explanation why it would be after 2005? Because 
that is a ridiculous position, we are not going to do anything 
until 2005.
    And then how, what is the Chinese ability to control the 
north quarter of Burma? And have they been cooperating from a 
governmental standpoint?
    And then if there is a DEA followup, too.
    Mr. Simons. Thank you. The commitment by the Wa to 
terminate opium production by 2005 was made about 3 years ago. 
And the statistics actually show that opium cultivation has 
been declining in Burma over the past several years, although 
it still remains at unacceptable levels.
    The issue with the Wa really is the following: They are 
coming under a lot of pressure from the Chinese, because a lot 
of the opium that formerly went south through Thailand is now 
going out north through China, is servicing a very large 
Chinese market, and some of it is being exported in that 
direction. So the Chinese have been cracking down on the 
Burmese and on the Wa, on that heroin traffic out through the 
north.
    And the other--but the other real major issue is that the 
Wa have gotten into methamphetamines in a very, very big way. 
And as you probably know, methamphetamines are the major 
threat, drug threat in Southeast Asia now. And the Thai are 
largely preoccupied with the methamphetamine threat from Burma. 
They still remain concerned about the heroin threat, but 
methamphetamine is the overwhelming threat to public health, 
and it is one of the biggest national security problems in 
Thailand.
    So the Wa here--we are looking at several issues. We are 
looking to what they are doing on heroin, but we are also 
looking at what they are doing on methamphetamines. And up 
until now, I mean, the estimates of Burmese methamphetamine 
production are upwards of 700 million tablets a year, of 
flooding the entire Southeast Asia region, troubling not just 
the Government of Thailand, but creating public health problems 
in Laos, Cambodia, Vietnam, Indonesia. So it is a very, very, 
very serious problem.
    And so we have several threats there. It is not just 
heroin. It is also methamphetamines.
    Mr. Souder. Mr. Guevara, do you have any presence in China? 
Are they cooperative? Do they work with you?
    Mr. Guevara. Yes, sir.
    Mr. Souder. Particularly along any of that border area, 
which is a very tough zone?
    Mr. Guevara. The United Province, I believe, is that 
region. And I am happy to say that DEA has established an 
office in Beijing and that we have several agents that are 
assigned there. And we have recently seen the results of the 
liaison that DEA is responsible for conducting there in a 
Southeast Asian heroin investigation in which the Burmese-
origin opium was being converted to morphine base and then 
subsequently to heroin. It was transiting through the United 
Province, and then transiting Hong Kong, and in the end was 
ending up on the street of New York City. And that 
investigation culminated with the arrest of several individuals 
in China, in Hong Kong, in New York. And in addition to that, 
followup investigation led to the location and dismantling of a 
methamphetamine laboratory that was found in, I believe, the 
city of Calcutta, India.
    So to answer your question, we are indeed fortunate to have 
a DEA presence in Beijing. And we enjoy very good liaison with 
our counterparts in China.
    Mr. Souder. All your written statements will be in record, 
but I want to make sure I verbally note a couple points here, 
too.
    In Mr. Simons' testimony, you say while Mexico appears to 
be the largest foreign source of processed methamphetamine, the 
U.S. Government is concerned that Canada has become a 
significant source of the precursor chemical pseudoephedrine, 
also a source of high potency marijuana.
    And you say you remain concerned that the resulting control 
regime they have passed in Canada may not be strong enough, 
particularly on the investigative enforcement front. And I hope 
you will keep the committee--we're very involved with the 
Canadian parliamentary group; we have been battling on all 
these issues--informed of any specifics that you want us to 
continue to pursue aggressively with Canada.
    Also, in your testimony on the precursors, you talk about 
that and Ecstasy, about the Netherlands, which is supplying, we 
believe, most of the Ecstasy to the United States. And you make 
a reference to the fact that at the end of June they seized 12 
million Ecstasy pills in Rotterdam, which was more than our 
total seized in the United States.
    In your testimony you say, in 2001 we seized 9.5 million, 
and the one bust in Rotterdam was 12 million.
    Do you have any comments on--other than the law 
enforcement, from the governmental end, do you believe the 
Dutch are understanding the nature of their problem and are 
working aggressively to address it, that they are understanding 
that they have, in precursor chemicals, become the center, kind 
of the Colombia of Europe?
    Mr. Simons. Thank you, Mr. Chairman.
    First of all, let me salute your efforts and the efforts of 
your staff to work cooperatively with the Department of State 
on the whole issue of synthetics and precursors. We have had a 
very good dialog that goes back several years on this.
    And as you know, the President in his annual drug 
certification letter to Congress on January 30th of this year 
specifically cited the concerns that we have both with Canada 
on the issue of the precursors, the pseudoephedrine, as well as 
the issue with respect to synthetics and the Government of the 
Netherlands. Again, that letter was issued on January 30th.
    Since then, in the intervening months, we have been quite 
actively engaged on the diplomatic front to work more 
cooperatively with both countries on these respective issues. 
We have a good dialog going with the Canadians; we have our law 
enforcement agencies working actively on the issue of how these 
regulations are being implemented. We will certainly keep in 
touch with you.
    The regulations are new. They have only been out a couple 
months, so we don't have an extremely long time period to test 
how they are being put into place. But this is something we are 
paying close attention to.
    Similarly, with respect to the Netherlands, in the wake of 
the President's letter, we worked out a bilateral action plan. 
We have had a couple of sets in meetings. We are beginning to 
engage with the Dutch on ways that we can work together more 
cooperatively. DEA has been very active in that, as well as the 
Department of State, and certainly we believe that the Ecstasy 
issue is an important one and one we need to work together 
cooperatively on.
    So we will promise to keep in touch with you on how we are 
doing on this.
    Mr. Souder. And last, before I go to the next member. Both 
you and Mr. Hollis--and Mr. Hollis could briefly comment. In 
your written statement, you refer to our friends from North 
Korea.
    Could you describe a little bit how they emerged from a 
drug threat--I'll have Mr. Hollis do this--and, also, how 
cooperative they are?
    Mr. Hollis. Thank you, Mr. Chairman.
    And as you accurately noted, there are a variety of folks 
in the interagency and the Congress in the international arena 
who are very concerned about the reports of drug trafficking 
emanating from North Korea.
    The numbers are not clear yet. The estimates are not 100 
percent accurate in terms of what we do know versus what we 
don't know, and I would be happy--and I would defer to State, 
who leads the interagency effort, to come up here and brief you 
in a secure fashion, you and any other Members and appropriate 
staff, on what we do know and don't know.
    But I would pose this question: To the extent that elements 
within North Korea engage in drug trafficking and generate 
money from it, we know that money is not going to feeding the 
people. So where is it going? And that raises some very serious 
concerns.
    Mr. Souder. Do you have anything to add to that, Mr. 
Simons?
    Mr. Simons. I would just know that the two areas that we 
are looking into--and there is a very active interagency 
exercise under way right now--are methamphetamines and opium. 
We are discussing the issue with our Japanese colleagues, with 
our South Korean colleagues.
    Clearly, there is quite a large body of evidence that 
suggests that North Korean traffickers have been marketing 
methamphetamine for many years in the Asia region. And we have 
also had quite a few reports of opium trafficking and a number 
of allegations which we have not been able to substantiate 
about opium cultivation.
    So we are taking a look at all of these issues on an 
interagency basis. There have been some hearings up here in 
Congress; and we'll continue to keep you informed.
    Mr. Souder. Mr. Ruppersberger.
    Mr. Ruppersberger. I want to get back to the issue I talked 
about, the allocation of national resources to drug 
interdiction missions.
    Many of our most significant interdiction assets were due 
to move to the new Department of Homeland Security. And based 
on--we talked about the information received by our staff and 
other experts, one of them being at the Joint Interagency Task 
Force in Key West, FL; that these--as a result of the transfer 
of the resources to Homeland Security, it has begun to have a 
dire negative impact on drug interdiction. And some detection 
and interception programs have available only a minuscule 
portion of the amount of resources the government experts have 
deemed necessary for adequate drug interdiction.
    Now, I talked about before, and really the purpose of--one 
of the purposes of today's hearing is to try to determine 
precisely, what has been the extent of the disruption as a 
result of the transfer, what steps can be taken to ensure the 
adequacy of interdiction resources, and whether resources will 
ever return to previous levels. And I will give you an example, 
because I want to get the specificity.
    I understand all of you are representing your different 
departments and you want to speak positively about your 
department, but we want to help give you the resources to do 
your job. And when you look at the fact that it had been stated 
that more than 300 metric tons of cocaine, that previously 
would have been detected and intercepted, may have been allowed 
on America's streets last year because our resources have been 
diverted to other purposes, I would like each one of you to 
address that issue as far as that amount of cocaine coming into 
the United States; and then address the issue of what is 
determined--you know, what the extent of the disruption has 
been because of the change, what steps can be taken to ensure 
the adequacy of the interdiction resources, and whether 
resources will ever return to the levels that you think they 
should be.
    Do you want to start, Mr. Simons?
    Mr. Simons. Thank you. I would just like to make two points 
here.
    I think, from the State Department perspective, most of our 
programs are international, are not that directly involved in 
some of the assets that are made available by the U.S. 
agencies. But I would like to cite two examples.
    First, when you talk about resources, you are talking not 
just about financial resources, but also human resources. And 
one of the issues that we did encounter immediately after 
September 11 was that some of the agencies that had provided us 
trainers for overseas law enforcement in our training academies 
and our training programs were obliged to move some of those 
training personnel back to operational activities in the 
continental United States. That was immediately after September 
11.
    But we found that within----
    Mr. Ruppersberger. Who were those ``some'' that were 
diverted?
    Mr. Simons. Which agencies were involved?
    Mr. Ruppersberger. Yeah.
    Mr. Simons. I think all of the U.S. law enforcement 
agencies that teach at our International Law Enforcement 
Academy. So it would be the DEA and the FBI, Customs.
    But there was a huge mobilization immediately after 
September 11, as you are aware, and many people were diverted. 
But we found that within several months we were able to, 
working very closely with all of the agencies and being a 
little bit creative in terms of who we looked to conduct the 
training--in certain cases, we had to look to retired instead 
of active duty--we found that we were able to restore the 
faculties to all our International Law Enforcement Academies 
within several months. And there was a good spirit I think, an 
interagency spirit, not to want to interrupt these programs, 
recognizing that training of international drug and law 
enforcement officials is something that is going to pay off for 
the United States in the long run. So that, I think, is a 
positive signal.
    The other positive signal I wanted to send was on the 
Airbridge Denial Program. We haven't had a chance to talk about 
that yet in this hearing, but we have had, I think, a very 
strong interagency commitment of very scarce assets to get that 
program up and running. Specifically--I think Mr. Mackin has 
this in his testimony, but the Bureau of Homeland Security has 
agreed to contribute P-3 aerial surveillance aircraft that are 
in very short supply to the Airbridge Denial Effort. DOD is 
contributing substantial human assets.
    Again, a lot of the issues here are human capital, not just 
financial capital. They are contributing substantial human 
capital out of JIATF South in Key West. The FAA is providing 
important advisors on the Colombian Civil Aviation component of 
this.
    So we have a good interagency effort to move forward this 
Presidential priority.
    Mr. Ruppersberger. Mr. Hollis.
    Mr. Hollis. Thank you, Congressman.
    Specifically, the number of U.S. Navy ships in the 
Caribbean and the Eastern Pacific did not change after 
September 11.
    Mr. Ruppersberger. You said that before.
    Mr. Hollis. Second.
    Mr. Ruppersberger. But I'm looking for what areas, other 
than that, where there has been a diversion.
    Mr. Hollis. Yes, sir.
    We have annually assigned Reserve P-3 pilots. Those pilots 
went to go provide support in Afghanistan and Iraq. I believe 
that if they've not returned already, that they will be 
returning. So to the extent that we have a certain number of 
hours where P-3 pilots----
    Mr. Ruppersberger. Let me stop you right here. And I 
understand that, and I would love to hear the positive. But we 
talked about the 300 metric tons coming onto the streets. There 
is no question; I mean, people have said that. What is the 
reason for that? Where have these resources been diverted?
    If you can't answer the question, then just tell me. But 
the bottom line--I mean, I want to hear the positive. We want 
to keep doing it. And as I said before, it is not about you 
all, it is about the direction of the resources at the top to 
give you the resources to do the job.
    Mr. Hollis. From a DOD perspective, the only thing that we 
lost were those P-3 pilots.
    Mr. Ruppersberger. Mr. Guevara, how about you?
    Mr. Guevara. Yes, sir. I'm in the unique situation of being 
able to say that we are a single-mission agency, and that prior 
to September 11 we were engaged fully in the business of drug 
enforcement and continue to do so.
    With regard to the resource redirection, I can also say 
that we are fortunate enough, under the 2003 budget, to have 
received an additional 216 new special agents in addition to 
other support personnel. And I couldn't agree more with what 
has been said here, that at the end of the day really what 
makes the difference is that one narcotics officer who is out 
there doing the job. And I am optimistic that for the 2004 
budget we will receive additional enhancements.
    Mr. Ruppersberger. But what is the reason for the 300 
metric tons of cocaine that previously would have been detected 
that have come into the United States of America?
    What do you feel, since September 11, the reason for that 
is? That is what I am trying to get to. I mean, that's--experts 
in the drug field have stated that. There has been a diversion. 
There is no question there has been a diversion. And we are 
talking about teamwork. I think teamwork has been fantastic 
with respect to terrorism. But what is the reason for that 
then?
    Where would you like to see resources go that aren't going 
now? I will ask the question that way.
    Mr. Guevara. I will defer to my colleagues from the State 
Department and the DOD on that.
    Mr. Ruppersberger. Why? Why would you defer to them, if you 
are the sole source? I am just trying to get the issue about 
where the resources are. I know you are representing your 
agency, but we are trying to find the reason; that is the 
purpose of the hearing.
    Why is there a reluctance of anybody on the panel to say 
where you would want more resources to do the job on a very 
difficult job? That is all I am asking. I mean, you are an 
expert in the field. We have testimony, we have statements.
    There we go , saved by the bell.
    Yes, Mr. Mackin.
    Mr. Mackin. The most vulnerable resource is the P-3 
aircraft. For example, during Liberty Shield, there were 18 P-
3s, they were all devoted to the northern border. I am not 
saying that was wrong. But just, when you're looking for what's 
diverted away, and when you lose your airborne aircraft like 
that, a seacraft, a hull is far less efficient. And so that is 
one.
    And then, of course, Admiral Collins, you guys have been 
helping him. He needs more resource.
    And finally, on this 300 metric tons, we are getting about 
one-third of what we know about. Last year, we knew about 471 
metric tons that were moving north. We got one-third of that. 
If we had more resource, we would be getting a higher. But I 
think even prior to the September 11 we were short of resource.
    In other words, the intelligence gives us more opportunity 
than we are able to exploit.
    Mr. Ruppersberger. The issue I am really looking for is the 
diversion of funds into fighting terrorism, which is necessary, 
but being taken away from drug enforcement.
    One other thing, because my time is almost up and we have 
to go vote. The linkage between the drug trade and terrorism, 
and specifically al Qaeda. Al Qaeda is looking for different 
ways for money. I know there are issues with respect--in 
Colombia with the FARC as an example. Do you see that 
developing even from a stronger perspective?
    Mr. Hollis. Congressman, not every drug trafficker is a 
terrorist; not every terrorist is a drug trafficker. But there 
is a group in the middle of terrorist organizations that 
generate revenue from drug trafficking. And as our colleagues 
in law enforcement throughout the world identify and attack 
their illicit sources of finances, what we are seeing is that 
they are increasingly relying upon illicit sources of finance, 
whether it is drugs, whether it is diamonds, whether it is 
arms, whether it is that whole realm of what Admiral Blair, the 
former commander of Pacific Command called ``that criminal 
covert sewer,'' and he's exactly right.
    So what we are seeing is, these groups are looking for 
sources of covert finance that they don't have to report to 
their taxing authority, and drugs is one of them.
    Mr. Ruppersberger. Anybody else?
    Mr. Souder. I wanted to make sure I get this question on 
the record, and in a comment regarding the 300 tons, that a lot 
of that is because the Coast Guard boats aren't out there; that 
is probably the biggest reason, along with the Airbridge 
Denial, which occurred just before September 11.
    But in answer to one of your questions, we heard something 
fairly disturbing. I want to yield to Mr. Davis in just a 
minute. I want to raise the question now. Don't answer the 
question, but then either we'll have a second to answer it, or 
I want written answers for it.
    Mr. Simons said--and I would like to ask the question to 
Mr. Mackin and get a response, if not right now, then later. If 
the President signs the Airbridge Denial Program today, what 
assets would be assigned?
    Mr. Simons implied one, you said--did you mean one P-3?
    Mr. Simons. I believe that is correct. But I believe it is 
included in Mr. Mackin's testimony.
    Mr. Souder. Because the problem that comes is that there 
were four. And to get four operating, you need eight, because 
you have flight time, you have refueling, you have maintenance, 
and one is barely a half.
    And so that is the type of thing we are concerned about, 
because the dramatic numbers that we were given that lead to 
that 300 million is largely boat and, specifically, airtime. 
One percent of the requested airtime is being covered right now 
of the proposed; out of the narcotics specialists, there is 
only 1 percent being covered.
    Now, part of that is Airbridge Denial; partly we are trying 
to do some from Coast Guard boats as opposed to P-3s. But if 
the Coast Guard boats are on orange alert and they are back up 
in the harbor, there is only one out there a lot of the time. 
And this is the Caribbean side, let alone the Eastern Pacific 
where we don't have an oiler.
    This is a huge, dramatic problem, and we can do a 
percentage of that at the border, but it does need to be 
addressed.
    Let me go to Mr. Davis, and then we will come back, because 
he has been patiently waiting.
    Mr. Davis of Illinois. Thank you, Mr. Chairman.
    Mr. Mackin, how would you rank illegal drugs among the 
national security threats? I mean, where would you place 
illegal drug trafficking?
    Mr. Mackin. Congressman Souder said this at the start, but 
Secretary Ridge said this the other day.
    I was talking to him about the degree of threat that drugs 
pose and pointed out that over 19,000 a year die from 
overdoses. And his reaction was--he said, ``My God, that is six 
Twin Towers every year.'' It is.
    I think the impact is huge on our country. That is 19,000 
say, 500 from overdoses; there is another 30,000 that die--like 
30 percent of AIDS deaths are drug-related; they got it from 
the needles that they were using for drugs.
    It is imbedded in our fabric right now. The social cost is 
something like $161 billion a year, just social costs.
    Most people arrested in the 33 metropolitan areas, between 
50 and 85 percent--it varies from one city to the other. But 
when they are arrested, they test positive for at least one 
drug.
    Fifty-two percent of drug addicts in the United States have 
illegal sources of income, and what that means is they are 
either stealing or they are in prostitution. It is devastating.
    Mr. Davis of Illinois. And you would say that the fact that 
you have now been brought on to work with this is an indication 
of the Homeland Security Department's recognizing that threat 
and how important it is?
    Mr. Mackin. I have talked to all the under secretaries, I 
have briefed them on the drug threat. Everyone, everyone is 
appalled and very concerned, and they are focusing--we are 
focusing our resources on this right now. There is a major 
scrubbing, looking at what can we do better.
    Mr. Davis of Illinois. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Souder. Mr. Mackin, did you want to respond to my 
earlier question on what if the President signs the Airbridge 
Interdiction, what assets would actually be assigned?
    Mr. Mackin. Sir, right now we are committed to providing 
one airborne early warning P-3. But as soon as we can get--once 
it's signed, we will get our crews and our P-3 tracker aircraft 
certified. So we will be putting two aircraft onsite for each 
week; they will be down there on weekly deployments.
    Mr. Souder. Do you know--and this may be Mr. Hollis, Mr. 
Mackin, or anybody--about Coronet Nighthawk and why the F-16s 
at the forward operating location would have been pulled after 
September 11?
    And is that going to be replaced?
    Mr. Hollis. I can tell you, Mr. Chairman, that the F-16s 
were pulled not necessarily because of September 11, but 
because F-16s as supersonic aircraft aren't good at detecting 
small, slow flying aircraft and ships. So it wasn't a matter of 
pulling them for other resources; it was a matter of realizing 
that supersonic aircraft armed with surface or air-to-air 
missiles aren't good at supporting law enforcement to interdict 
drug traffickers.
    Mr. Souder. Could you explain how the Department of Defense 
originally decided they would be good to put them there?
    Mr. Hollis. That is a good question, sir. And I can tell 
you that it was a decision that was made before I came on 
board.
    Mr. Souder. Do you feel that they might have thought that 
they would be a pretty strong deterrent effect if you saw F-16s 
coming after you? Because, quite frankly, isn't this also true, 
without getting into too much detail, some--after September 11 
we used F-16s around the country in similar ways when it wasn't 
really feasible, but they were a pretty strong deterrent 
effect?
    Mr. Hollis. I think it is fair to say, sir, that the F-16s 
that have performed as part of Operation Liberty Shield were 
put up to prevent hostile aircraft from striking, again, 
sensitive and valued targets within the United States. I don't 
think anyone has ever proposed that we would use F-16s and fire 
upon slow-moving aircraft, particularly if we didn't know what 
was on them.
    So the question is, to what extent does having F-16s in, 
say, the Caribbean provide a credible deterrent to drug 
traffickers? The other part of it, which is also borne out by 
the facts, is that most of the drugs that are moving toward the 
United States are not indeed moving by air, they are moving by 
ship. Again, to what extent can an F-16 assist law enforcement 
in interdicting a Go Fast moving in the chop of the Caribbean 
Sea or the Eastern Pacific? Not much.
    So the question is more one of what is the operational 
value of using F-16s versus either other air platforms or other 
maritime platforms.
    Mr. Souder. Well, I want to thank you for your testimony, 
for being here today. We will have some additional written 
questions.
    As you can see from a pretty bipartisan approach here, we 
all favor more efficiency, we all favor streamlining and 
figuring out what is most effective. We have deep concerns on 
both sides of the aisle, including from the Speaker in my 
private conversations with him, and working through that.
    In fact, some of what is being done in the name of 
streamlining is just basically trying to get out of obligations 
in the drug area, and that we had previous coalitions and that 
if everybody pulls out in these pieces or reduces their 
commitment, we are left standing comparatively defenseless. 
That is why our DEA needs to be increased in its boosting up to 
provide additional information.
    If FBI is going to be pulled off this, if ATF is going to 
be diverted, if Homeland Security is worried and has a 
legitimate Homeland Security threat and they are going to be 
off narcotics, then who are the people going to be that are 
doing the narcotics and where are those people going to be 
funded? And we have to make sure that in chasing the possible 
catastrophic threats to the United States we don't lose our 
battle in the day-to-day threats that are killing all sorts of 
people in every community--rural, urban, suburban--in every 
State of the Union.
    I thank you all for your leadership and look forward to 
continuing to work with you. And the subcommittee stands 
adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T2515.066

[GRAPHIC] [TIFF OMITTED] T2515.067

[GRAPHIC] [TIFF OMITTED] T2515.068

[GRAPHIC] [TIFF OMITTED] T2515.069

[GRAPHIC] [TIFF OMITTED] T2515.070

[GRAPHIC] [TIFF OMITTED] T2515.071

[GRAPHIC] [TIFF OMITTED] T2515.072

[GRAPHIC] [TIFF OMITTED] T2515.073

[GRAPHIC] [TIFF OMITTED] T2515.074

[GRAPHIC] [TIFF OMITTED] T2515.075

[GRAPHIC] [TIFF OMITTED] T2515.076

[GRAPHIC] [TIFF OMITTED] T2515.077

[GRAPHIC] [TIFF OMITTED] T2515.078

[GRAPHIC] [TIFF OMITTED] T2515.079

[GRAPHIC] [TIFF OMITTED] T2515.080

[GRAPHIC] [TIFF OMITTED] T2515.081

[GRAPHIC] [TIFF OMITTED] T2515.082

[GRAPHIC] [TIFF OMITTED] T2515.083

[GRAPHIC] [TIFF OMITTED] T2515.084

[GRAPHIC] [TIFF OMITTED] T2515.085

[GRAPHIC] [TIFF OMITTED] T2515.086

[GRAPHIC] [TIFF OMITTED] T2515.087

[GRAPHIC] [TIFF OMITTED] T2515.088

[GRAPHIC] [TIFF OMITTED] T2515.089

[GRAPHIC] [TIFF OMITTED] T2515.090

[GRAPHIC] [TIFF OMITTED] T2515.091


</pre></body></html>
